TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                  The Discretionary Examination Program
                   Performance Results Are Incomplete;
                 Therefore, Some Measures Are Overstated
                              and Inaccurate



                                       August 6, 2009

                           Reference Number: 2009-40-099




 This report has cleared the Treasury Inspector General for Tax Administration disclosure review
 process and information determined to be restricted from public release has been redacted from
                                          this document.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-622-6500
 Email Address | inquiries@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                 DEPARTMENT OF THE TREASURY
                                                     WASHINGTON, D.C. 20220




TREASURY INSPECTOR GENERAL
  FOR TAX ADMINISTRATION




                                                 August 6, 2009


 MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION
                DIRECTOR, OFFICE OF RESEARCH, ANALYSIS, AND
                STATISTICS

 FROM:                           Michael R. Phillips
                                 Deputy Inspector General for Audit

 SUBJECT:                        Final Audit Report – The Discretionary Examination Program
                                 Performance Results Are Incomplete; Therefore, Some Measures Are
                                 Overstated and Inaccurate (Audit #200840027)

 This report presents the results of our review to evaluate case selection and processing in the
 Wage and Investment (W&I) Division’s Discretionary Examination Program (the Program). We
 evaluated the productivity of the Program, including overall changes in workload, case cycle
 time, 1 and case closures. Further, we evaluated the impact audit reconsideration had on the
 Program’s results. This review is included in our Fiscal Year (FY) 2009 Annual Audit Plan
 under the major management challenge of Taxpayer Protection and Rights.

 Impact on the Taxpayer
 The Discretionary Examination Program conducts correspondence audits by requesting that
 taxpayers provide documents within a limited time period to support questionable items on
 individual tax returns. Program management is providing oversight, accountability, and
 monitoring of its performance results to meet established Program goals; however, management
 is excluding significant audit results and time used to conduct the audits. In addition, the
 Program is experiencing significant mail processing delays. The mail processing delays could
 prevent the correspondence from being processed timely, which could increase taxpayer burden
 by requiring the taxpayer to provide the requested documents multiple times.




 1
     See Appendix VII for a glossary of terms.
                              The Discretionary Examination Program
                          Performance Results Are Incomplete; Therefore,
                          Some Measures Are Overstated and Inaccurate



Synopsis
The Program, better known as Correspondence Examination, is a major Internal Revenue Service
(IRS) operation used to ensure, improve, and enforce compliance. The Program provides audit
coverage to taxpayers who file individual tax returns that do not claim the earned income tax
credit. For FY 2007, the Program generated more than $784 million in tax assessments from
approximately 235,000 correspondence audits.
With management oversight, accountability, and monitoring of its performance results, the
Program met its established goals for FYs 2005 through 2007. The Program uses historical
performance data along with yearly expectations from the IRS executives to establish the yearly
work-plan goals and determine the mix of returns to be selected and worked. The Program uses
operational reports to monitor its performance. We found the Program met its yearly established
goals for the number of discretionary audits and audit reconsiderations opened and the number of
audits closed for FYs 2005 through 2007. In addition, we verified the operational reports to the
Audit Information Management System (AIMS) for FYs 2004 through 2007 and determined the
operational reports correctly reflected the assessed dollars and time used to audit the returns and
appropriately identified how the cases were closed.
However, Program management is excluding significant audit results and time used to conduct
the audit reconsideration cases from the operational reports submitted to W&I Division
executives, as well as to the Chief Financial Officer who prepares an overall report for the IRS
Oversight Board. Audit reconsiderations are reevaluations of previously closed correspondence
examinations because the taxpayer submitted additional or new information to support an issue
on the tax return that may reduce the tax previously assessed. The operational reports omitted
the percentage of the audit reconsideration cases abated, associated abated tax assessments, and
the time that it takes to work the audit reconsideration cases because they are not tracked in the
AIMS.
Audit reconsideration cases are tracked in a separate inventory system that is incapable of
producing accurate operational reports showing the original audit tax assessments and the tax
abatement results. Program management stated the Small Business/Self-Employed Division
owns the inventory system and it is very unlikely that changes to the system will occur because
of a lack of funding for reprogramming. IRS officials told us that the Office of Research,
Analysis, and Statistics captures the audit reconsideration results for the Program. Program
management reviewed the reported results and identified inconsistencies with the volumes in the
report when compared to its work plan and tracking system of audit reconsideration volumes.
Program management stated that it does not use the reports because it does not know the
methodology used to compute the results and has not expressed a need for the reports. A closer
examination of the source of the reports revealed that the IRS uses the AIMS and Master File to
compute the results. Since the Program’s audit reconsiderations are excluded from the AIMS


                                                                                                     2
                             The Discretionary Examination Program
                         Performance Results Are Incomplete; Therefore,
                         Some Measures Are Overstated and Inaccurate


and Program management reported inconsistencies in the volumes of audit reconsiderations, we
cannot provide assurance that the reported performance results are accurate.
In addition, in Calendar Year 2007, we estimated it took an average of 159 cycle days for tax
examiners to close the audit reconsideration cases. The time it took to close the audit
reconsideration cases was impacted by mail processing delays in a centralized unit which
handles multiple tasks. Some of the extenuating circumstances included misrouted and rerouted
mail handled by predominantly clerical employees who lacked the technical or procedural
knowledge to resolve mail processing issues. In addition, skilled employees in the centralized
unit have multiple priorities, including working other examinations, answering toll-free
telephone lines, and making online adjustments.
The Program has agreed to implement a comprehensive sorting process that addresses the
handling of all types of mail. The process is scheduled to be implemented by October 2009.
However, the W&I Division is currently sponsoring a quality improvement team to develop a
consistent mail process for the entire Examination function. The quality approach could delay
the implementation of the comprehensive sorting process to FY 2010.

Recommendations
We recommended the Commissioner, W&I Division, coordinate with the Office of Research,
Analysis, and Statistics to identify the methodology for computing the audit reconsideration
results and reconcile the reported results to the Program’s work-plan reports and tracking system
to ensure the results are correctly reflected. Once the reported results are reconciled, Program
management should use them to evaluate program productivity. In addition, we recommended
the Commissioner, W&I Division, modify the Program’s operational reports to include audit
reconsideration cycle time in the audit closure results.

Response
IRS management agreed with one of our two recommendations and disagreed with the other.
Discretionary Examination Program management and staff will coordinate with the Office of
Research, Analysis, and Statistics to discuss and obtain an understanding of the programming
logic supporting the current Audit Reconsideration report. They will compare the data elements
and programming used by the Office of Research, Analysis, and Statistics to those used by their
Work Planning & Control program to identify and attempt to reconcile discrepancies. If
beneficial programming changes are identified, the Office of Research, Analysis, and Statistics
will consider making those changes, but cannot commit to implementation until this request is
prioritized along with all other requests for programming changes. IRS management responded
that the programming changes required to capture audit reconsideration cycle time would not


                                                                                                  3
                             The Discretionary Examination Program
                         Performance Results Are Incomplete; Therefore,
                         Some Measures Are Overstated and Inaccurate


only be cost prohibitive, but difficult to support given other critical and legislative programming
requirements. Management’s complete response to the draft report is included as Appendix VIII.

Office of Audit Comments
IRS management disagreed that the Program’s operational reports should be modified to include
audit reconsideration cycle time in its audit closure results. Management cited cost prohibitive
programming and difficulty supporting the need for changes as the reasons for not including the
cycle time. We understand the concern with cost; however, excluding the cycle time for audit
reconsiderations from the monthly or yearly operational reports distorts the Program’s overall
performance results provided to IRS management and oversight bodies. We reported that, in
Fiscal Year 2007, audit reconsiderations represented 8 percent of the Program’s overall audit
closures. As the IRS cited in its response, audit reconsiderations constitute about 10 percent of
the overall Examination Program. We believe that, as the reconsideration cases increase, the
audit cycle will likely increase. Given the growth and Program management’s use of the
operational reports to monitor its performance and to establish the yearly work-plan goals and
determine the mix of returns to be selected and worked, we maintain that using all aspects of
historical performance data is needed to establish accurate and complete yearly goals.
Copies of this report are also being sent to the IRS managers affected by the report
recommendations. Please contact me at (202) 622-6510 if you have questions or
Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations), at (202) 622-8510.




                                                                                                 4
                                        The Discretionary Examination Program
                                    Performance Results Are Incomplete; Therefore,
                                    Some Measures Are Overstated and Inaccurate




                                              Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Management Oversight Ensured Established Program Goals Were Met .....Page 3
          Exclusion of Significant Audit Reconsideration Results and Time Used
          to Conduct Them Led to Overstated and Inaccurate Program Performance
          Results...........................................................................................................Page 4
                    Recommendations 1and 2: .................................................Page 9



Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 11
          Appendix II – Major Contributors to This Report ........................................Page 14
          Appendix III – Report Distribution List .......................................................Page 15
          Appendix IV – Outcome Measures...............................................................Page 16
          Appendix V – Fiscal Years 2005 and 2006 Discretionary Examination
          Work-Plan Goals and Results ......................................................................Page 19
          Appendix VI – Program Results for Fiscal Years 2004 Through 2007........Page 20
          Appendix VII – Glossary of Terms ..............................................................Page 21
          Appendix VIII – Management’s Response to the Draft Report ...................Page 23
           The Discretionary Examination Program
       Performance Results Are Incomplete; Therefore,
       Some Measures Are Overstated and Inaccurate




               Abbreviations

AIMS     Audit Information Management System
CEAS     Correspondence Examination Automation Support
CY       Calendar Year
FY       Fiscal Year
IRS      Internal Revenue Service
W&I      Wage and Investment
                                    The Discretionary Examination Program
                                Performance Results Are Incomplete; Therefore,
                                Some Measures Are Overstated and Inaccurate




                                                Background

The Internal Revenue Service (IRS) Wage and Investment (W&I) Division serves approximately
123 million taxpayers who file 94 million U.S. Individual Income Tax Returns (Forms 1040)
with no accompanying Profit or Loss From Business (Schedule C), Supplemental Income and
Loss (Schedule E), Profit or Loss From Farming (Schedule F), or Employee Business Expenses
(Form 2106). One of the W&I Division’s programs is the Discretionary Examination Program
(the Program). The Program’s stated goal is to annually select non-earned income tax credit case
inventory that would produce a low no change rate and adequate yield (assessments) per case
and provide appropriate coverage to address noncompliance across a broad spectrum with
fairness to all taxpayers. In addition, the Program focuses on implementing the IRS’ strategy of
reducing audit cycle time and improving audit coverage.
The Program’s audits are conducted by corresponding with the taxpayer rather than having a
face-to-face meeting. Once a tax return is selected for examination, a letter is sent to the
taxpayer requesting additional information to support the tax items in question. The taxpayer’s
response comes into the IRS mail room and is date stamped prior to the mail room forwarding
the correspondence to the Program. If a response is not received during a specified time period,
another letter is issued showing the proposed tax assessment resulting from the questioned
examination items. Again, the taxpayer is given the opportunity to respond with the requested
information. If the taxpayer does not respond, or if a response and documentation is insufficient
to negate the questioned examination items, a Notice of Deficiency (Letter 3219) 1 is issued to the
taxpayer giving him or her 90 calendar days to file a petition with the Tax Court. If resolution
has not occurred by the end of the 90-day period, the correspondence audit is closed and the
assessed tax is posted to the taxpayer’s account. However, if the taxpayer later provides
information addressing the questioned tax issue, the Program opens a reevaluation of the prior
audit case file to examine the additional information. The reevaluation is considered an audit
reconsideration.
The Program uses the monthly and yearly operational reports to monitor the results for examined
returns and audit reconsideration case closures. The operational reports provide the assessment
dollars, average cycle time, number of closures for examined returns, and number of closures for
audit reconsideration cases.
This review was performed at the W&I Division Headquarters in Atlanta, Georgia, during the
period January 2008 through May 2009. We conducted this performance audit in accordance
with generally accepted government auditing standards. Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for

1
    See Appendix VII for a glossary of terms.
                                                                                            Page 1
                             The Discretionary Examination Program
                         Performance Results Are Incomplete; Therefore,
                         Some Measures Are Overstated and Inaccurate



our findings and conclusions based on our audit objective. We believe that the evidence
obtained provides a reasonable basis for our findings and conclusions based on our audit
objective. Detailed information on our audit objective, scope, and methodology are presented in
Appendix I. Major contributors to the report are listed in Appendix II.




                                                                                         Page 2
                                 The Discretionary Examination Program
                             Performance Results Are Incomplete; Therefore,
                             Some Measures Are Overstated and Inaccurate




                                     Results of Review

Management Oversight Ensured Established Program Goals Were Met
The IRS Commissioner and W&I Division executives are involved in establishing the Program’s
measurable goals, such as increasing the workload by a certain percentage over the prior year.
Once the goals are set, Program management and the Policy, Monitoring, Analysis, and Quality
function use historical performance data to establish the annual work-plan goals and measures
and determine the types of returns to be selected and worked.
The Program selects tax returns based on its business rules and referrals from the Criminal
Investigation Division and the Automated Underreporter program. Once the returns are selected,
Program management reviews the annual work plan to ensure the selection meets the planned
volume and types of returns.
The Program uses the Audit Information Management System (AIMS) to assign the returns to
the five W&I Division Compliance function campuses to be worked. 2 Also, the AIMS tracks
data such as audit results, cycle time, and disposal codes for the initial audit of a return and
provides operational reports on closed audit cases.
The Program was successful in meeting the work-plan goals established for Fiscal Years
(FY) 2005 through 2007. The work-plan goals and related results for FYs 2005 through 2006
are located in Appendix V. The FY 2007 goals and related results are located in Figure 1.




2
 The five campuses are located in Andover, Massachusetts; Atlanta, Georgia; Austin, Texas; Fresno, California; and
Kansas City, Missouri.
                                                                                                          Page 3
                                 The Discretionary Examination Program
                             Performance Results Are Incomplete; Therefore,
                             Some Measures Are Overstated and Inaccurate



                 Figure 1: FY 2007 Discretionary Examination Work-Plan
                                   Goals and Results

                                                   Operational                        Percentage
                                Work-Plan
                                                    Reports             Difference     Over or
                                 Goals
                                                    Results                            (Short)

   Discretionary Audit
                                      219,000             234,508            15,508        7.08%
   Closures
   Discretionary Audit
   Reconsideration                     15,986              20,313             4,327       27.07%
   Closures
   Discretionary Audit
                                      218,361             225,255             6,894        3.16%
   Openings
   Discretionary Audit
   Reconsideration                     16,524              21,716             5,192       31.42%
   Openings
  Source: Our analysis of FY 2007 work-plans and operational reports.

The Program provides an explanation to the Chief Financial Officer when it exceeds its
commitment/goals by 10 percent or falls short by 7 percent. These data are included in an
overall report to the IRS Oversight Board. For FY 2007, the IRS provided an explanation for its
overages in initial audit closures but did not include audit reconsideration closures. IRS
management explained that audit reconsideration results are not tracked in the official database
for audit information—the AIMS—and by definition audit closures do not include audit
reconsiderations. Only Program data tracked in the AIMS are reported to the Chief Financial
Officer and Oversight Board. Audit reconsideration results are tracked in the Correspondence
Examination Automation Support (CEAS) system.
We verified the operational reports from the AIMS data for FYs 2004 through 2007 and found
they correctly reflected the assessed dollars and time used to audit the returns (cycle time) and
identified how the cases were closed. The results of our analyses are shown in Appendix VI.

Exclusion of Significant Audit Reconsideration Results and Time
Used to Conduct Them Led to Overstated and Inaccurate Program
Performance Results
An Office of Management and Budget standard stresses that agencies need to regularly collect
timely and credible performance information and use it to manage the program and improve

                                                                                              Page 4
                                  The Discretionary Examination Program
                              Performance Results Are Incomplete; Therefore,
                              Some Measures Are Overstated and Inaccurate



performance. In addition, management should track major agency achievements and compare
them to established plans, goals, and objectives.
While the Program reports the numbers of audit reconsideration case closures to the Policy,
Monitoring, Analysis, and Quality function, Program management does not report the results of
the audit reconsideration cases to any other oversight bodies. In FY 2007, audit reconsiderations
represented 8 percent of the Program’s overall audit closures. The Program’s operational
reports, which are used to inform W&I Division executives of the Program’s performance,
include neither the percentage of audit reconsideration cases abated and the associated abated tax
assessments nor the cycle days that it takes to work the reconsideration cases.
Program management stated that, primarily, audit reconsiderations are associated with post-audit
requests for adjustment. If reconsiderations were added to audit closures, then audit closures
would be overstated and coverage inflated. On the
contrary, omitting the audit reconsideration case data      The audit reconsideration
from the overall Program operational reports               results are omitted from the
overstates the total assessments, which causes an        operational reports, which leads
overstatement of Program operational results for          to overstated and inaccurate
yield—or assessment per case—and understates the              performance results.
cycle time to work closures.
To estimate the impact audit reconsideration cases had on the reported operational results for the
Program, we statistically sampled 78 audit reconsideration cases closed in Calendar Year
(CY) 2007. 3 Our review of the 78 audit reconsideration cases showed the Program originally
assessed $229,311 in taxes. However, during the audit reconsideration process, $156,787
(68.373 percent) 4 of the assessed tax was abated, which occurred in 61 (78.205 percent) of the
78 audit reconsideration cases. We made this determination using tax information captured in
the Integrated Data Retrieval System. Figure 2 shows the CY 2007 projections for the estimated
abatements on cases previously closed by the Program.




3
  In CY 2007, the audit reconsideration cases closed would be cases worked in 2007 as well as prior examination
periods and could involve multiple tax years. We extracted the data for CY 2007 instead of FY 2007 because
Program management advised us that the data prior to January 2007 contained numerous errors. Therefore, the
calendar year data were considered more reliable.
4
  The percentages are shown with three decimal places throughout the report to ensure calculations are more
accurate.
                                                                                                          Page 5
                                  The Discretionary Examination Program
                              Performance Results Are Incomplete; Therefore,
                              Some Measures Are Overstated and Inaccurate



                          Figure 2: Treasury Inspector General for Tax
                          Administration Reconsideration Projections
                                          for CY 2007 5

                    Reconsideration Cases Closed in CY 2007                          22,001

                    Percentage of Reconsideration Cases With Abatements             78.205%

                    Estimated Reconsideration Cases With Partial or Full
                                                                                     17,206
                    Abatements

                    Projected Assessments                                         $64,680,401

                    Projected Abatements                                          $44,223,984

                    Projected Interest Paid to Taxpayers                            $1,151,470

                   Source: Our projections for reconsiderations and abatements for CY 2007.

Based on our analysis of a sample of CY 2007 closed audit reconsideration cases, we project that
17,206 (78.205 percent) of the 22,001 reconsideration cases would have been subject to partial or
full abatement, resulting in a large reduction of the total taxes assessed and reported in the
Program’s operational results. Our results show that in CY 2007, the 22,001 audit
reconsideration cases closed had $64,680,401 in projected tax assessments and that
17,206 (78.205 percent) closed cases, or $44,223,984 6 (68.373 percent), could be abated. If we
applied the projected estimated tax abatements of $44,223,984 to the $784,505,853 dollars
assessed in FY 2007, the Program would have a net assessment of $740,281,869 instead of the
reported $784,505,853. 7 In addition, the IRS paid $4,082 in interest to 28 taxpayers from the
78 sample cases which, when projected, is $1,151,470 for the population of 22,001 cases closed
in CY 2007. Therefore, for accurate Program performance results, the W&I Division should
include data related to the audit reconsideration work in its overall Program results.
In addition, in CY 2007, we estimated it took the Program an average of 159 cycle days for tax
examiners to close the audit reconsideration cases. Figure 3 shows the processing time between
the Program received date and audit reconsideration closing date.




5
  Since we sampled only closed cases from CY 2007, we projected the results only to FY 2007.
6
  The projected abated dollars that are calculated using 68.373 percent times $64,680,401 will not equal this amount
due to rounding.
7
  We applied the calendar year projected abatements to the fiscal year actual assessments since the Program was not
reporting the abatements from their audit reconsideration cases.
                                                                                                            Page 6
                             The Discretionary Examination Program
                         Performance Results Are Incomplete; Therefore,
                         Some Measures Are Overstated and Inaccurate



employees who lacked the technical or procedural knowledge to resolve mail processing issues.
In addition, skilled employees in the centralized unit designed to process audit reconsiderations
managed multiple priorities, including working other examinations, answering toll-free
telephone lines, and making online adjustments.
Mail processing delays increased taxpayer burden because the Program had to request that
taxpayers provide the same information multiple times. In our review of the 78 cases, we
determined in the administrative files of 6 cases (8 percent) that there was evidence showing that
the taxpayers or their representatives complained that requested documents were provided one or
more times during the initial audit and/or the audit reconsideration process. The second requests
occurred because the IRS claimed not to have received the responses that the taxpayers or their
representatives argued were previously provided via fax or regular mail. In 3 (4 percent) of the
administrative case files, we found multiple copies of the requested documents, each having
different IRS date stamps.
The Program has agreed to implement a comprehensive sorting process that addresses the
handling of all types of mail received, including open and closed correspondence and mail
misrouted to the wrong function. The process is scheduled to be implemented by October 2009.
However, the W&I Division is currently sponsoring a quality improvement team to develop a
consistent mail process for the entire Examination function. The quality approach could delay
the implementation of the comprehensive sorting process to FY 2010.
Failing to include the abatement results and cycle time for reconsideration audits in the monthly
or yearly operational reports distorts the Program’s overall performance results. While the
Program used available data from the CEAS system to capture the audit reconsideration
inventory numbers, management informed us the CEAS system is incapable of producing
accurate operational reports showing the original audit tax assessments and the tax abatement
results; however, no assessment of the system’s accuracy has been conducted. Also,
management added the reports would be inaccurate in part due to errors made when manually
inputting assessments and abatements as opposed to a system which would automatically update
the amounts. With statistical sampling by quality reviewers and judgmental sampling by the
manager, there is limited review of clerical input to the CEAS system. Program management
stated the Small Business/Self-Employed Division owns the inventory system and it is very
unlikely that changes to the system will occur because of a lack of funding for reprogramming.
We discussed changes needed for AIMS with Small Business/Self-Employed Division and
Program management and staff and were told that the Office of Research, Analysis, and
Statistics captures audit reconsideration results for the Program. Program management reviewed
the reported results and identified inconsistencies with the volumes in the report when compared
to its work-plan report and tracking system of audit reconsideration volumes. Program
management stated that it does not use the reports because it does not know the methodology
used to compute the results and has not expressed a need for the reports. A closer examination
of the source of the reports revealed that the IRS uses AIMS and Master File to compute the

                                                                                           Page 8
                             The Discretionary Examination Program
                         Performance Results Are Incomplete; Therefore,
                         Some Measures Are Overstated and Inaccurate



results. Since the Program’s audit reconsiderations are excluded from the AIMS and Program
management reported inconsistencies in the volumes of audit reconsiderations, we cannot
provide assurance that the reported performance results are accurate.

Recommendations
Recommendation 1: The Commissioner, W&I Division, should coordinate with the Office of
Research, Analysis, and Statistics to identify the methodology for computing the audit
reconsideration results and reconcile the reported results to the Program’s work-plan reports and
tracking system to ensure the results are correctly reflected. In addition, the Commissioner,
W&I Division, should ensure Program management uses the results as it evaluates the Program’s
productivity.
       Management’s Response: IRS management agreed with this recommendation. The
       Discretionary Examination Program management and staff will coordinate with the
       Office of Research, Analysis, and Statistics to discuss and obtain an understanding of the
       programming logic supporting the current Audit Reconsideration report. They will
       compare the data elements and programming used by the Office of Research, Analysis,
       and Statistics to those used by their Work Planning & Control program to identify and
       attempt to reconcile discrepancies. If beneficial programming changes are identified, the
       Office of Research, Analysis, and Statistics will consider making those changes, but
       cannot commit to implementation until this request is prioritized along with all other
       requests for programming changes.
Recommendation 2: The Commissioner, W&I Division, should modify the Discretionary
Examination Program’s operational reports to include audit reconsideration cycle time in its
audit closure results.
       Management’s Response: IRS management disagreed with this recommendation.
       The programming changes required to capture audit reconsideration cycle time would not
       only be cost prohibitive, but difficult to support given other critical and legislative
       programming requirements.
       Office of Audit Comment: IRS management disagreed that the Discretionary
       Examination Program’s operational reports should be modified to include audit
       reconsideration cycle time in its audit closure results. Management cited cost prohibitive
       programming and difficulty supporting the need for changes as the reasons for not
       including the cycle time. We understand the concern with cost; however, excluding the
       cycle time for audit reconsiderations from the monthly or yearly operational reports
       distorts the Program’s overall performance results provided to IRS management and
       oversight bodies. We reported that, in Fiscal Year 2007, audit reconsiderations
       represented 8 percent of the Program’s overall audit closures. As the IRS cited in its
       response, audit reconsiderations constitute about 10 percent of their overall Examination

                                                                                           Page 9
                      The Discretionary Examination Program
                  Performance Results Are Incomplete; Therefore,
                  Some Measures Are Overstated and Inaccurate



Program. We believe that, as the reconsideration cases increase, the audit cycle will
likely increase. Given the growth and Program management’s use of the operational
reports to monitor its performance and to establish the yearly work-plan goals and
determine the mix of returns to be selected and worked, we maintain that using all aspects
of historical performance data is needed to establish accurate and complete yearly goals.




                                                                                  Page 10
                                    The Discretionary Examination Program
                                Performance Results Are Incomplete; Therefore,
                                Some Measures Are Overstated and Inaccurate



                                                                                      Appendix I

            Detailed Objective, Scope, and Methodology

Our overall audit objective was to evaluate case selection and processing in the W&I Division’s
Discretionary Examination Program (the Program). We evaluated the productivity of the
Program, including the overall changes in workload, case cycle time, 1 and case closure. Further,
we evaluated the impact audit reconsiderations had on the Program’s results. To accomplish our
objective, we:
I.         Determined how the Program established its annual work-plan commitments/goals and
           identified the appropriate mix of returns to include in its annual inventory of cases.
           A. Documented the approach the Program used when determining its annual work-plan
              goals.
           B. Documented the procedures followed when identifying and selecting the Program
              annual inventory of cases.
           C. Reviewed the AIMS and the CEAS system to document what types of data are
              captured to track the Program’s case resolution and what reports are available to
              assist in Program management.
           D. Documented the Program’s process for working cases.
II.        Determined the accuracy of the Program’s productivity by evaluating the overall changes
           in workload (case disposal codes), assessments, and the time it took to work the cases
           (cycle time).
           A. Conducted an analysis of the Program’s yearly workload monitoring report data to
              determine whether the operational reports accurately depict the results of closed
              cases.
           B. Analyzed the AIMS closed audit cases by type of disposal codes, project codes, and
              campuses to identify trends that may have impacted the production results during the
              4-year period, and differences between the AIMS closed case file (source data) and
              the information presented in the workload monitoring reports.
           C. Compared the Program’s FY 2007 monitoring report against the AIMS data extracted
              to determine if the monitoring report accurately reflected the operational results—



1
    See Appendix VII for a glossary of terms.
                                                                                             Page 11
                                  The Discretionary Examination Program
                              Performance Results Are Incomplete; Therefore,
                              Some Measures Are Overstated and Inaccurate



             case disposition by disposal codes, assessments, cycle time, and full-time equivalents
             for the closed cases.
III.    Determined the impact audit reconsiderations had on Program results.
        A. Analyzed the available Program’s FY 2004 through 2007 workload monitoring report
           data related to the reconsideration cases worked during those periods.
        B. Evaluated a sample of 78 reconsideration closed cases from the CEAS system data
           extract to determine if the Program’s emphasis to reduce case cycle time resulted in
           an increase in the number of reconsiderations and whether the increase adversely
           affected Program results for CY 2007. The extract identified a population of
           22,001 audit reconsiderations cases closed from January 1 to December 31, 2007.
           We validated the audit reconsideration extract by selecting a random sample of
           25 audit reconsideration records and compared specific fields 2 of information to the
           data stored on the CEAS system and the Integrated Data Retrieval System. We
           reviewed the overall data for blank or incomplete fields and fields that contained
           improper, unusual, or illogical data. In addition, we assessed the reliability of the
           CEAS data and determined that the CEAS system extract data were not reliable.
           However, when used in conjunction with the Integrated Data Retrieval System, the
           CEAS system data could be used to select a sample of records. The sample of
           78 reconsideration cases were randomly selected based on a 95 percent confidence
           level, ±6 percent precision level, and an 8 percent expected error rate. We reviewed
           the cases to determine if there were any cases that could have been worked during the
           initial exam process had the taxpayer been provided appropriate time to respond.
        C. Discussed any exception cases with Program management and determined what may
           have caused the exceptions.
        D. Projected to the total number of reconsideration cases assessed to estimate the number
           of abatement requests, abatements, and the cycle time for the population using the
           results from audit Steps III. B.
        E. Discussed the results with the Program’s management and determined why
           reconsideration cases were not tracked or the impact on Program performance
           measured. In addition, we discussed with IRS officials the improvements planned to
           enhance the tracking and quantifying of audit reconsiderations to address the cost and
           results of reconsiderations, the modification planned for the CEAS system reports,


2
 We compared the following fields to the audit reconsideration occurrences screen in the CEAS system database for
accuracy: taxpayer’s name, tax period, type of case, IRS received date, exam received date, abatement amount,
original tax assessment amount, disposal code, and disposal date. We also compared these select fields (taxpayer’s
name, tax period, original tax assessment amount, and abatement amount) to the Integrated Data Retrieval System
for accuracy.
                                                                                                         Page 12
                     The Discretionary Examination Program
                 Performance Results Are Incomplete; Therefore,
                 Some Measures Are Overstated and Inaccurate



   and changes in the work process planned to reduce the number of audit
   reconsiderations.
F. Discussed with IRS officials the tracking and reporting of reconsiderations used
   elsewhere in the IRS. We evaluated Program management’s review of the reported
   results. We researched the systems used to compute the reported reconsiderations
   and discussed our conclusions with Program management and IRS officials.




                                                                              Page 13
                            The Discretionary Examination Program
                        Performance Results Are Incomplete; Therefore,
                        Some Measures Are Overstated and Inaccurate



                                                                             Appendix II

                 Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Compliance and Enforcement
Operations)
Michael E. McKenney, Assistant Inspector General for Audit (Returns Processing and Account
Services)
Marybeth Schumann, Director
Deborah Drain, Audit Manager
James O’Hara, Audit Manager
Steven Stephens, Acting Audit Manager
Cindy Harris, Lead Auditor
Tanya Adams, Senior Auditor
Janice Murphy, Senior Auditor
Andrea McDuffie, Auditor




                                                                                    Page 14
                           The Discretionary Examination Program
                       Performance Results Are Incomplete; Therefore,
                       Some Measures Are Overstated and Inaccurate



                                                                        Appendix III

                        Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Deputy Commissioner, Wage and Investment Division SE:W
Director, Campus Compliance Services, Small Business/Self-Employed Division SE:S:CCS
Director, Campus Reporting Compliance, Small Business/Self-Employed Division SE:S:CCS
Director, Compliance, Wage and Investment Division SE:W:CP
Director, Reporting Compliance, Wage and Investment Division SE:W:CP:RC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of program Evaluation and Risk analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaisons:
       Commissioner, Small Business/Self-Employed Division SE:S
       Commissioner, Wage and Investment Division SE:W
       Director, Office of Research, Analysis and Statistics RAS




                                                                                Page 15
                                  The Discretionary Examination Program
                              Performance Results Are Incomplete; Therefore,
                              Some Measures Are Overstated and Inaccurate



                                                                                                Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
    •   Reliability of Information – Potential; $44,223,984 in assessed 1 taxes were abated in
        CY 2007 and were excluded from the management operational report (see page 4).
    •   Reliability of Information – Potential; approximately 159 cycle days to close the audit
        reconsideration cases were excluded from the management operational report (see
        page 4).

Methodology Used to Measure the Reported Benefit:
To estimate the impact audit reconsideration cases had on the reported operational results, we
statistically sampled 78 audit reconsideration cases closed in CY 2007 based on a 95 percent
confidence level, ±6 percent precision level, and 8 percent expected error rate.
The sample was randomly selected from the population of 22,001 audit reconsideration cases
contained in the extract of the CEAS system database provided by the IRS. Our review of
78 audit reconsideration cases showed the Program originally assessed $229,311 in taxes, but
later in the audit reconsideration process $156,787 (68.373 percent) 2 of the assessed taxes were
abated, which occurred in 61 (78.205 percent) of the 78 audit reconsideration cases.
Based on our analysis of CY 2007 closed audit reconsideration cases, we project that 17,206
(78.205 percent) of the 22,001 reconsideration cases would have been subject to partial or full
abatement resulting in a large reduction of the total taxes assessed and reported in the Program’s
operational results. Our results show that in CY 2007, the 22,001 audit reconsideration cases
closed had $64,680,401 in projected tax assessments and that 17,206 (78.205 percent) closed
cases or $44,223,984 3 (68.373 percent) could be abated. If we applied the projected estimated




1
  See Appendix VII for a glossary of terms.
2
  The percentages are shown with three decimal places throughout the report so calculations will be more accurate.
3
  The projected abated dollars that are calculated using 68.373 percent times $64,680,401 will not equal due to
rounding.
                                                                                                          Page 16
                            The Discretionary Examination Program
                        Performance Results Are Incomplete; Therefore,
                        Some Measures Are Overstated and Inaccurate



to the population of 22,001 records. We estimated 1,692 taxpayers provided supporting
documents multiple times. The projection was made using random sampling, with a 95 percent
confidence level and with an actual precision factor of 5.941 percent. The mail processing
delays could prevent the correspondence from being processed timely, which increased taxpayer
burden by compelling the taxpayer to provide the requested documents multiple times.




                                                                                      Page 18
                                   The Discretionary Examination Program
                               Performance Results Are Incomplete; Therefore,
                               Some Measures Are Overstated and Inaccurate



                                                                                                    Appendix V

                 Fiscal Years 2005 and 2006 Discretionary
                 Examination Work-Plan Goals and Results

                                      FY 2005                                             FY 2006

                               Operational                Percentage               Operational                Percentage
                   Work-Plan                                           Work-Plan
                                Reports      Difference    Over or                  Reports      Difference    Over or
                    Goals                                               Goals
                                Results                     (Short)                 Results                     (Short)


Discretionary
Audit Closures
                     74,823      154,452        79,629     106.42%      163,000      193,699       30,699       18.83%


Discretionary
Audit
Reconsideration
                      2,078       10,513         8,435     405.92%        8,650        13,932       5,282       61.06%
Closures

Discretionary
Audit Openings
                     95,519      157,606        62,087      65.00%      177,264      225,349       48,085       27.13%


Discretionary
Audit                Not
Reconsideration    Available
                                  11,785         -            -           9,815        14,835       5,020       51.15%
Openings

Source: Our analysis of Discretionary Examination work plans and operational reports.




                                                                                                              Page 19
                                       The Discretionary Examination Program
                                   Performance Results Are Incomplete; Therefore,
                                   Some Measures Are Overstated and Inaccurate



                                                                                                 Appendix VI

     Program Results for Fiscal Years 2004 Through 2007

                                                               FY 2004        FY 2005        FY 2006        FY 2007
                        1
 Total Taxes Assessed                                        $249,977,491   $444,106,123   $581,861,967   $784,505,853

 Total Cases Worked                                            107,382        154,305        193,524        234,508

 Percentage Increase in Assessed Taxes From FY 2004 Through FY 2007                                         213.8%
 Percentage Increase in Cases Worked From FY 2004 Through FY 2007                                           118.4%
                2
 No Change:
      Cases Worked                                              21,891         39,875         44,569         38,729

      Percentage of No Change Cases to Total Cases Worked        20%            26%            23%            17%

 Agreed:
      Dollars                                                $71,301,517    $149,737,509   $150,848,645   $189,087,318

      Percentage of Agreed Dollars to Total Dollars              29%            34%            26%            24%

      Cases Worked                                              40,256         61,232         68,207         84,266

      Percentage of Agreed Cases Worked to Total Cases           37%            40%            35%            36%
        Worked
 Appealed/Petitioned (A/P):
      Dollars                                                $16,252,081    $32,893,769    $ 36,814,069   $ 33,306,205
      Percentage of A/P Dollars to Total Dollars                 7%             7%             6%             4%
      Cases Worked                                              1,629          3,054          4,092          3,929
      Percentage of A/P Cases to Total Cases Worked              2%             2%             2%             2%
 No Response/Undeliverable:
      Dollars                                                $162,423,893   $261,474,845   $394,199,253   $562,112,330
      Percentage No response Dollars to Total Dollars            65%            59%            68%            72%
      Cases Worked                                              43,606         50,144         76,656        107,584
      Percentage of No response Cases to Total Cases             41%            32%            40%            46%
 Cycle Time in Days                                              162            144            139            149

Source: Analysis of AIMS data and IRS Discretionary Examination Monitoring Reports FYs 2004 through 2007.




 1
     See Appendix VII for a glossary of terms.
 2
     For FYs 2006 and 2007, the Program changed the disposal code criteria for “no change” and “agreed” cases.
                                                                                                            Page 20
                              The Discretionary Examination Program
                          Performance Results Are Incomplete; Therefore,
                          Some Measures Are Overstated and Inaccurate



                                                                                 Appendix VII

                                Glossary of Terms

Abatement – A reduction or elimination of unpaid taxes.
Agreed Disposal Code – Used when the taxpayer agrees with the proposed assessment.
Appealed/Petitioned Disposal Code – Used when the taxpayer does not agree with the
proposed tax assessment and requests an Appeals conference or petitions the Tax Court.
Assessment – The statutorily required recording of the tax liability.
Audit Information Management System (AIMS) – An IRS computer system that provides
inventory and activity control of active examinations.
Audit Reconsideration – The process the IRS uses to reevaluate the results of a prior audit
where additional tax was assessed and remains unpaid, or a tax credit was reversed. If the
taxpayer disagrees with the original determination, he or she must provide information that was
not previously considered during the original examination.
Campus – The data processing arm of the IRS. The campuses process paper and electronic
submissions, correct errors, and forward data to the Computing Centers for analysis and posting
to taxpayer accounts.
Correspondence Examination – Examinations that focus on a limited number of specific issues
on a tax return designed to address clear-cut issues which do not require a full-scale face-to-face
audit, but can be conducted by correspondence.
Correspondence Examination Automation Support (CEAS) System – The IRS suite of
web-based applications developed to enhance the Campus examination process. The CEAS
system enables case assignment and transfer between examination groups and batch groups,
facilitates a universal view of the campus exam case inventory, and allows the display of the
client-generated tax reports and letters associated with the exam case.
Cycle Time – Measure of how long it takes to work a case with a cycle being counted in days.
Default Disposal Code – Used when a taxpayer fails to sign the tax report showing the proposed
assessment and does not request an Appeals conference or petition the Tax Court.
Earned Income Tax Credit – A type of refundable credit that is available to low-income
taxpayers.
Full-Time Equivalent – A measure of labor hours in which 1 Full-Time Equivalent is equal to
8 hours multiplied by the number of compensable days in a particular fiscal year. For FY 2008,

                                                                                           Page 21
                              The Discretionary Examination Program
                          Performance Results Are Incomplete; Therefore,
                          Some Measures Are Overstated and Inaccurate



1 Full-Time Equivalent was equal to 2,096 staff hours. For FY 2009, 1 Full-Time Equivalent is
equal to 2,088 staff hours.
Integrated Data Retrieval System (IDRS) – An IRS computer system with the capability to
instantaneously retrieve or update stored taxpayer information. The IDRS tracks taxpayer status
and allows for post transaction updates back to the Master File.
Master File – The IRS database that stores various types of taxpayer account information. This
database includes individual, business, and employee plans and exempt organizations data.
No Change Disposal Code – Used to indicate that the tax return was examined but there was not
a change in the tax liability or any adjustments.
Notice of Deficiency – A certified letter required by law that is mailed to the taxpayer explaining
an increase in taxes and advising the taxpayer if he or she disagrees with the assessed tax
increase that he or she has 90 days to petition the Tax Court.




                                                                                           Page 22
            The Discretionary Examination Program
        Performance Results Are Incomplete; Therefore,
        Some Measures Are Overstated and Inaccurate



                                                Appendix VIII

Management’s Response to the Draft Report




                                                         Page 23
    The Discretionary Examination Program
Performance Results Are Incomplete; Therefore,
Some Measures Are Overstated and Inaccurate




                                                 Page 24
    The Discretionary Examination Program
Performance Results Are Incomplete; Therefore,
Some Measures Are Overstated and Inaccurate




                                                 Page 25
